            versight

            eport

  QUALITY CONTROL REVIEW OF DELOITTE & TOUCHE, LLP,
  AND DEFENSE CONTRACT AUDIT AGENCY FOR OFFICE OF
       MANAGEMENT AND BUDGET CIRCULAR A-133
   AUDIT REPORT OF PENNSYLVANIA STATE UNIVERSITY,
            FISCAL YEAR ENDED JUNE 30, 1999


Report Number D-2001-6-005                     May 1, 2001


             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DCAA                  Defense Contract Audit Agency
OMB                   Office of Management and Budget
                                                                            May 1, 2001



Controller
Pennsylvania State University


Partner-in-Charge
Deloitte & Touche, LLP


Director
Defense Contract Audit Agency


SUBJECT: Report on Quality Control Review of Deloitte & Touche, LLP, and
         Defense Contract Audit Agency for Office of Management and Budget
         Circular A-133 Audit Report of Pennsylvania State University,
         Fiscal Year Ended June 30, 1999
         Report No. D2001-6-005 (Project No. D2001-OA-0075)

        We are providing this report for your information. The firm of Deloitte &
Touche, LLP, (Deloitte & Touche) and the Defense Contract Audit Agency (DCAA),
performed the single audit for the Pennsylvania State University (Penn State), a non-
profit land grant university located in State College, Pennsylvania. The audit is required
by the Office of Management and Budget (OMB) Circular A-133, “Audits of States,
Local Governments, and Non-Profit Organizations” (Circular A-133). Penn State
expended approximately $294 million against Federal awards, representing $88 million
for the DoD and $206 million for other Federal agencies in the fiscal year ended
June 30, 1999.

        Background. On October 8, 1999, Deloitte & Touche issued its financial
statement audit report with an unqualified opinion. Included in the financial statement
audit report was a Circular A-133 compliance report on the Schedule of Expenditures
of Federal Awards. Also on October 8, 1999, Deloitte & Touche issued a report on the
compliance with requirements applicable to the major Federal programs (excluding the
Research and Development program cluster) at Penn State. DCAA issued its report on
the Research and Development program cluster on March 7, 2000.
Appendix A. Quality Control Review Process

Scope and Methodology
We conducted a quality control review of the Deloitte & Touche, LLP, and DCAA
audit of the Penn State University for the fiscal year ended June 30, 1999, and the
resulting reporting submission to the Single Audit Clearinghouse received on
April 12, 2000. We performed our review using the 1999 edition of the “Uniform
Quality Control Guide for the A-133 Audits” (the Guide). The Guide applies to any
single audit that is subject to the requirements of OMB Circular A-133, revised
June 24, 1997. The Guide is the approved checklist of the President’s Council on
Integrity and Efficiency for performing the quality control review procedures. Our
review was conducted from February 2001 through April 2001 and covered areas
related to the financial statements and one major program, research and development.

In conducting the review, we reviewed all working papers prepared by the auditors,
discussed the audit with the auditors and Penn State cognizant personnel, and retested
selected audit procedures.

Prior Quality Control Reviews

Inspector General, DoD

       PO-97-055, “Clausell & Associates and Deloitte & Touche LLP, Clark Atlanta
       University, Fiscal Year Ended June 30, 1996,” September 30, 1997.

       PO-97-036, “Deloitte and Touche LLP, Oregon Graduate Institute of Science
       and Technology, Fiscal Year Ended June 30, 1996,” June 30, 1997.


Single Audit Requirements
The Circular A-133 establishes policies to guide implementation of the Single Audit Act
of 1996 (Public Law 98-502) amendments and provides an administrative foundation
for uniform audit requirements for non-Federal entities that administer Federal awards.
In addition, Circular A-133 serves to ensure that Federal departments and agencies rely
on and use the audit work to the maximum extent practicable. To meet the intent of the
law and Circular A-133, a complete reporting package on each single audit is submitted
to the Single Audit Clearinghouse from the auditee (non-Federal entity) that includes
the following:

       •   Data collection form certified by the auditee that the audit was completed in
           accordance with the Circular A-133;

                                           3
       •   Financial statements and related opinion;

       •   Schedule of Expenditures of Federal Awards and related opinion;

       •   Report on internal controls over compliance and on compliance with laws,
           regulations, and the provisions of contracts or grant agreements, and related
           opinion on compliance of major programs; and

       •   Schedule of Findings and Questioned Costs.

OMB also issues a Compliance Supplement (the Supplement). The Supplement assists
the auditors in determining the audit scope of the Circular A-133 requirements for
review of internal control. For each compliance requirement, the Supplement describes
the objectives of internal control and certain characteristics that when present and
operating effectively may ensure compliance with program requirements. The
Supplement gives examples of the common characteristics for the five components of
internal controls (control environment, risk assessment, control activities, information
and communication, and monitoring) for each compliance requirement. The following
14 compliance requirements applicable to the various Federal programs are identified in
the Supplement:

A.    Activities Allowed/Unallowed *           H.      Period of Availability of Federal Funds *
B.    Allowable Costs/Cost                     I.      Procurement and Suspension and
       Principles *                                     Debarment *
C.    Cash Management *                        J.      Program Income *
D.    Davis-Bacon Act                          K.      Real Property Acquisition/Relocation
E.    Eligibility of Federal Funds                      Assistance
F.    Equipment and Real Property              L.      Reporting *
       Management *                            M.      Subrecipient Monitoring *
G.    Matching, Level of Effort,               N.      Special Tests and Provisions *
       Earmarking *




* Identifies those compliance requirements applicable to Penn State



                                           4
Appendix B. Report Distribution

Kenneth S. Babe                           Director, Non-Federal Audits
Corporate Controller                      Office of Inspector General
Pennsylvania State University             U.S. Department of Education
408 Old Main                              Wanamaker Building
University Park, PA 16802-1505            100 Penn Square East, Suite 502
                                          Philadelphia, PA 19107
J. David Viehman, Partner
Deloitte & Touche, LLP                    U.S. Department of Energy
Twenty-Fourth Floor                       Office of the Inspector General
1700 Market Street                        ATTN: Single Audit Contact
Philadelphia, PA 19103-3984               1000 Independence Ave. SW
                                          IG-33, Room 5A-193
Director                                  Washington, DC 20585
Defense Contract Audit Agency
8725 John J. Kingman Road,                National Audit Managers - Non-Federal
Suite 2353                                 Audits
Fort Belvoir, VA 22060-6219               HHS OIG National External Audit
                                           Resources
Regional Inspector General                Lucas Place
U.S. Department of Agriculture            323 West 8th Street, Room 514
5601 Sunnyside Avenue                     Kansas City, MO 64105
Stop 5300
Beltsville, MD 20705-5300                 National Single Audit Coordinator
                                          Office of the Inspector General
National Single Auditor Coordinator       Mid-Atlantic Audit Division
U.S. Department of Agriculture            U.S. Environmental Protection Agency
Office of the Inspector General           3A100
Jamie L. Whitten Building -               1650 Arch Street, 3rd Floor
Room 450E                                 Philadelphia, PA 19103-2029
1400 Independence Avenue, N.W.
Washington, DC 20250                      NASA Office of the Inspector General
                                          NASA Headquarters, Code W
                                          Washington, DC 20546-001




                                      5
Appendix B. Report Distribution (cont’d)
Office of the Inspector General
National Science Foundation
Assistant Inspector General for Audit
4201 Wilson Boulevard, Suite 1135
Arlington, VA 22230

Chief, Office of Naval Research
800 North Quincy Street
Arlington, VA 22217-5660




                                        6
Evaluation Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report, are listed below.

Wayne C. Berry
M. Thomas Heacock
David H. Griffin
Ashley Harris
Krista S. Gordon
